HHS/OIG, Audit -"Audit of Casa De Oro's Medicaid Nursing Facility Cost Report for the Year
Ended December 31, 2000,"A-06-03-00082)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Casa De Oro's Medicaid Nursing Facility Cost Report for the Year Ended December 31, 2000," (A-06-03-00082)
June 30, 2005
Complete
Text of Report is available in PDF format (129 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether costs reported in nursing facility Casa De Oros
fiscal year 2000 cost report were allowable and in accordance with applicable Federal and State agency
requirements.  Casa De Oro claimed $103,665 in costs that were unallowable under State regulations
and applicable Medicare requirements.  The facility claimed $69,304 in unallowable, unsupported,
and duplicate management fees; $21,758 for related-company charges that were not reduced to cost or
to the price of comparable services purchased elsewhere; and $12,603 for costs that were not supported,
allowable, incurred, or patient-related.  We recommended that Casa De Oros current owner, Abe
Briarwood Corp., submit a revised fiscal year 2000 cost report for the facility that reduces costs
by $103,665 in unallowable costs so the State can recover Medicaid overpayments for the 3-year period
ended June 30, 2004.  Briarwood did not disagree with the findings, other than immaterial differences
in the amounts reported.  Briarwood chose not to provide written comments on the report.